<html>
<title> - [H.A.S.C. No. 111-154]SUPPORTING THE RESERVE COMPONENTS AS AN OPERATIONAL RESERVE AND KEY RESERVE PERSONNEL LEGISLATIVE INITIATIVES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-154]

  SUPPORTING THE RESERVE COMPONENTS AS AN OPERATIONAL RESERVE AND KEY 
               RESERVE PERSONNEL LEGISLATIVE INITIATIVES

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2010



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
57-925                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                Craig Greene, Professional Staff Member
                 John Chapla, Professional Staff Member
                      James Weiss, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, April 15, 2010, Supporting the Reserve Components as an 
  Operational Reserve and Key Reserve Personnel Legislative 
  Initiatives....................................................     1

Appendix:

Thursday, April 15, 2010.........................................    33
                              ----------                              

                        THURSDAY, APRIL 15, 2010
  SUPPORTING THE RESERVE COMPONENTS AS AN OPERATIONAL RESERVE AND KEY 
               RESERVE PERSONNEL LEGISLATIVE INITIATIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Carpenter, Maj. Gen. Raymond W., USA, Acting Director, Army 
  National Guard.................................................     9
Debbink, Vice Adm. Dirk J., USN, Chief, Navy Reserve.............     5
Kelly, Lt. Gen. John F., USMC, Commander, Marine Forces Reserve..     6
McCarthy, Hon. Dennis M., Assistant Secretary of Defense for 
  Reserve Affairs................................................     3
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief, Air Force Reserve     7
Stultz, Lt. Gen. Jack, USA, Chief, Army Reserve..................     4
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard     8

                                APPENDIX

Prepared Statements:

    Carpenter, Maj. Gen. Raymond W...............................   142
    Davis, Hon. Susan A..........................................    37
    Debbink, Vice Adm. Dirk J....................................    79
    Kelly, Lt. Gen. John F.......................................   101
    McCarthy, Hon. Dennis M......................................    41
    Stenner, Lt. Gen. Charles E., Jr.............................   121
    Stultz, Lt. Gen. Jack........................................    64
    Wilson, Hon. Joe.............................................    39
    Wyatt, Lt. Gen. Harry M., III................................   135

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Hare.....................................................   167
    Ms. Tsongas..................................................   167
 
  SUPPORTING THE RESERVE COMPONENTS AS AN OPERATIONAL RESERVE AND KEY 
               RESERVE PERSONNEL LEGISLATIVE INITIATIVES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                          Washington, DC, Thursday, April 15, 2010.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon. The meeting will come to order. 
Today this subcommittee will turn its attention to the 
important issue of what it means to be an Operational Reserve 
Force and to examine what policies, laws and practices may need 
to be adjusted to ensure a sustainable Reserve Force.
    The attacks on September 11, 2001 set in motion the 
sustained increased use and heavier reliance on the Reserves 
with over 761,000 reservists and guardsmen mobilized to date, 
one-third of whom have been activated two times or more. The 
Department of Defense (DOD) and the services have begun a 
transformation of the Guard and Reserve to an operational force 
with greater strategic capability and depth. This includes an 
equipping strategy to ensure the Reserve Components have the 
same equipment as their respective active component and 
effective force management strategy to ensure the Reserves are 
not over-utilized.
    In response to the continuing reliance on the Reserves, 
Congress took some key steps to address the concerns that 
emerged:
    First, it established the Commission on the National Guard 
and Reserves to provide a comprehensive, independent assessment 
of the Guard and Reserves and its potential future roles.
    Secondly, as part of the National Defense Authorization Act 
of 2008, Congress, one, elevated the Chief of the National 
Guard Bureau to the grade of four-star general; two, made the 
National Guard Bureau a joint organization; and three, required 
specific actions with regard to equipping the Guard and 
Reserves.
    Congress also mandated the establishment of the Yellow 
Ribbon Reintegration Program to assist Guard and Reserve 
members and their families' transition back to communities 
after deployment.
    Some of the issues of interest to the subcommittee we hope 
to discuss today, in today's hearing, would include the status 
of the remaining 53 recommendations of the Commission to the 
Department of Defense, the status of the Reserve retirement; 
the Continuum of Service objective; the promotion system and 
the integrated pay and personnel systems; the status of 
individual readiness, medical readiness, and force structure 
decisions; and the status of support to families and support to 
employers.
    We have an excellent panel consisting of the Assistant 
Secretary of Defense for Reserve Affairs and the Chiefs of the 
Reserve Components who will help us explore these issues. I 
will request that all witnesses keep their oral statements as 
close as you can to three minutes. And, without objection, all 
written statements will be entered into the record.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 37.]
    Mrs. Davis. I ask for unanimous consent to allow 
Congressman Phil Hare to submit a question for the record.
    [The information referred to can be found in the Appendix 
on page 167.]
    Mrs. Davis. Mr. Wilson, do you have opening remarks?

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Chairwoman Davis, I join you in welcoming our 
witnesses, the key civilian and military leaders of this 
nation's Reserve Components. Our country is so fortunate to 
have such dedicated military leaders who truly look out for 
their troops and military families. I thank them all for their 
service to the nation.
    We also want to thank you for having this hearing. In my 
view, we are in a period of transition, trying to incorporate 
the lessons learned from strong active and Reserve Component 
integration and interdependence during the past eight years of 
war, while moving towards a future where potential requirements 
for building and sustaining the Reserve Components as an 
Operational Reserve may soon outstrip the resources available.
    To illustrate my concern, let me highlight a point made in 
Secretary McCarthy's written statement. Quote: The fiscal year 
2011 budget provides for about $50 billion to pay for training, 
equipping, and facilities to support the Reserve Components. 
The funds provide about 43 percent of the total military end 
strength, for 9 percent of the total base budget.
    That statement reiterates an historical fact. The Reserve 
Components have always been remarkably cost-effective. The 
statement does not address, however, whether the $50 billion 
adequately meets the requirements for today's and tomorrow's 
Reserve Components, nor does it address the resourcing 
legislative and policy changes that would be required to ensure 
that the Reserve Components continue to be in an Operational 
Reserve and do not slip back into the former resource-dictated 
roles of being only a Strategic Reserve.
    Our witnesses, as military leaders, know during a time of 
battle that periods of transition, a passage of lines, a relief 
in place to shift from offense to defense are periods of risk. 
From my perspective during this period of transition, this 
period of risk, we must hear clearly and distinctly from each 
of the military services and from the Department of Defense how 
they intend to go forward to ensure the Reserve Components 
remain and grow as an Operational Reserve.
    I especially appreciate our Reserves, as a 31-year veteran 
of the Reserves and National Guard myself, with four sons 
currently serving in the military, with two having service in 
Iraq and three currently in the National Guard. For that reason 
I look forward today to the testimony of our witnesses with 
regard to how each of them is moving in both the short and long 
term to make the Reserve Components fully effective as an 
Operational Reserve.
    I yield the balance of my time.
    Mrs. Davis. Thank you.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 39.]
    Mrs. Davis. I would now like to introduce our panel. The 
Honorable Dennis M. McCarthy, Assistant Secretary of Defense 
for Reserve Affairs; Lieutenant General Jack Stultz, Chief, 
Army Reserve; Vice Admiral Dirk Debbink, Chief of Naval 
Reserve; Lieutenant General John F. Kelly, Commander of Marine 
Forces Reserve; Lieutenant General Charles Stenner, Chief of 
the Air Force Reserve; Lieutenant General Harry Wyatt, Director 
of the Air National Guard; and Major General Raymond Carpenter, 
Acting Director, Army National Guard. Thank you so much for 
being here.
    And I understand, Secretary McCarthy, that this is your 
first time testifying for us in this position, and we certainly 
want to welcome you, look forward to all of your statements.
    Mrs. Davis. And would you please begin, Mr. Secretary.

 STATEMENT OF HON. DENNIS M. MCCARTHY, ASSISTANT SECRETARY OF 
                  DEFENSE FOR RESERVE AFFAIRS

    Secretary McCarthy. Thank you, Madam Chairwoman, Ranking 
Member Wilson, and members of the subcommittee for the 
opportunity to be with you today. It is always an honor to 
testify before the Congress of the United States, and it is a 
privilege to appear and to represent the over 1.1 million men 
and women who serve in the National Guard and Reserve.
    One of the President's key goals, adopted and fully 
supported by Secretary Gates and all of the leaders of the 
Department of the Defense, is to sustain the all-volunteer 
force. We decided as a nation in the early 1970s that we wanted 
all of our military services to be made up exclusively of 
volunteers. We have learned since that time, and, as you point 
out, most specifically since September of 2001, that our all-
volunteer force can never be large enough to fight a sustained 
conflict or to remain decisively engaged in a global struggle 
without augmentation and reinforcement.
    We can get that augmentation from either one of two 
sources. We can either return to conscription or we can have a 
strong and effective Reserve Component. To me, it is clear that 
the latter course of a seamlessly integrated force made up of 
both active and Reserve members is the preferable one.
    So it is incumbent on the leaders sitting before you this 
afternoon to ensure that, with the support of Congress, we 
train, equip, and sustain the Reserve Component of that 
equation.
    There are three main themes that I believe we must all 
understand. First is that every man and woman serving in the 
Reserve Components in uniform today has made a conscious choice 
to serve. They have either enlisted or reenlisted since 9/11 
with the full understanding of what their decision means to 
them and to their families. They realize that service in the 
armed forces at this point in history means service in combat. 
They realize that service means repeated deployments that are 
challenging not just for the service members but for their 
families. And for those in the Reserve and Guard, they know 
that the challenges inherent in their decision affect their 
employers as well.
    The second point is that, as you point out, since 9/11 over 
750,000 soldiers, sailors, airmen, coastguardians, and Marines 
of the Reserve Component have been mobilized. Since I have been 
in office the last few months, the daily average of those 
mobilized has been about 140,000. And that number does not take 
into account the number of reservists who serve on active duty 
and other types and in other statuses around the world every 
day. We can't sustain this effort without the continued support 
of our families and our employers.
    Lastly, even after the demand for high numbers of forces in 
both Iraq and Afghanistan come down, we should continue to 
utilize our Reserve Components on a rotational basis. The 
nation has made a significant effort and a significant 
investment in the readiness and capability of this force, so it 
makes good sense from an economic standpoint to continue to get 
return on that investment.
    Even more importantly, the men and women of our Reserve 
Component continue to tell their leaders that this is how they 
want to be used. They do not want to go back to the old one 
weekend a month and one week in the summer paradigm.
    I will turn now to my colleagues who still get to wear 
their uniforms, but I am anxious to respond to any questions 
that the subcommittee may have.
    Mrs. Davis. Thank you.
    [The prepared statement of Secretary McCarthy can be found 
in the Appendix on page 41.]
    Mrs. Davis. Go ahead, sir.

  STATEMENT OF LT. GEN. JACK STULTZ, USA, CHIEF, ARMY RESERVE

    General Stultz. Chairwoman Davis, other distinguished 
members, first it is an honor to be here representing 208,000 
great heroes, the men and women that I have in uniform in the 
Army Reserve. And I can tell you that your Army Reserve is in 
good spirit. I am authorized 205,000, I mentioned I have got 
208,000. And as Secretary McCarthy indicated, all of those 
soldiers have either enlisted or reenlisted since 9/11. Morale 
is high.
    Since January I have been in nine or ten countries now, 
because I just came back from Haiti, visiting Army Reserve 
soldiers on duty around the world doing great things for this 
nation and great things for other nations, with wonderful 
skills that they have from their military, but also wonderful 
skills they bring from their civilian life and their civilian 
employment.
    To maintain this Operational Reserve my focus is really on 
three priorities: One, the soldiers. I have got to have the 
best-trained, best-equipped, best-led soldiers. Two, the 
families. We have got to have the support of our families, we 
have got to support them because they are making sacrifices 
just like our soldiers are. And three, the employers. Without 
the support of the employers we cannot maintain this 
Operational Reserve. Without the support of the employers, we 
cannot maintain, because one-weekend-a-month pay does not pay 
the mortgage, it does not send the kids to college. They depend 
on their employers. And their employers depend on us to provide 
them predictability, to provide them some kind of support and 
compensation, just like the families depend on us.
    But I can tell you morale is high, soldiers appreciate what 
they are doing. Just as Secretary McCarthy indicated, they 
didn't sign up for one weekend a month, two weekends in the 
summer, they signed up to go somewhere to do something for 
their nation, and we have a national treasure that we cannot 
afford to lose.
    Thanks for Congress's support for all you have done for our 
soldiers and our families, and I look forward to your 
questions, ma'am.
    Mrs. Davis. Thank you.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 64.]

   STATEMENT OF VICE ADM. DIRK J. DEBBINK, USN, CHIEF, NAVY 
                            RESERVE

    Admiral Debbink. Chairwoman Davis, Ranking Member Wilson, 
and distinguished members of the Military Personnel 
Subcommittee, thank you for the opportunity to discuss our 
vision of how we can best support the operational elements of 
our Navy Reserve.
    I would like to begin by thanking you for your terrific 
support for the 65,551 sailors and their families in our Navy 
Reserve. As the Chief of Naval Operations Admiral Gary Roughead 
has said, we are one Navy with an active component and Reserve 
Component. And as I testify this afternoon, Navy Reserve 
sailors are operating in every corner of the world, shoulder to 
shoulder with sailors, soldiers, airmen, Marines, 
coastguardsmen, and I think, most importantly perhaps 
sometimes, the interagency as well. On any given day more than 
30 percent of the Navy Reserve is providing support to 
Department of Defense operations.
    The Navy Reserve is ready now anytime, anywhere, as our 
motto and our sailors proudly claim. Just as the Quadrennial 
Defense Review reflects the Department of Defense priorities of 
both prevailing in today's wars while preventing and deterring 
future conflict, we believe our Reserve Components have both an 
operational mission to provide accessible, ready, and 
innovative forces for today's Joint Force requirements and also 
a core strategic role in our National Defense Strategy.
    To best accomplish these dual missions, we are 
concentrating our efforts on three strategic focus areas: 
First, enabling a true continuum of service. Secondly, 
delivering a ready and accessible force. And finally, providing 
valued capabilities to the Navy and Marine Corps team and Joint 
Forces. Continuous service initiatives provide for a seamless 
movement between the active component, Reserve Component, and 
civilian service, offering full access to the Navy total force, 
while delivering operational flexibility and strategic depth at 
the best value for the Navy. Delivering a ready and accessible 
force sustains that reliable inventory of on-demand expertise 
delivered by available trained and equipped individuals in 
units. And providing value capabilities advances the long-term 
course set forth in the Quadrennial Defense Review and the 
priorities of the Chief of Naval Operations by identifying and 
excelling in those missions of the Joint Force that are best 
accomplished by the Navy Reserve.
    Success in these operations, of course, is no accident. It 
is as a result of your sailors' can-do spirit, combined with 
the support of chain of command, support of families, and 
support of employers, and the proactive work of this Congress 
in helping us in all its endeavors is greatly appreciated. 
Together we seek to provide our sailors with the training, the 
equipment and the support that will ensure their success.
    It is a privilege to serve during these important and 
meaningful times in our nation's defense, especially as a Navy 
Reservist. I thank you for your continued support, your 
dedicated commitment to both the Navy Reserve and our Navy, and 
I look forward to your questions. Thank you, ma'am.
    Mrs. Davis. Thank you.
    [The prepared statement of Admiral Debbink can be found in 
the Appendix on page 79.]

 STATEMENT OF LT. GEN. JOHN F. KELLY, USMC, COMMANDER, MARINE 
                         FORCES RESERVE

    General Kelly. Congresswoman Davis, Congressman Wilson, 
distinguished members of the committee, I am certainly happy to 
be here today. This is my first opportunity to testify before 
the committee.
    I will open by simply saying I am an active duty general. I 
have known the Reserves for almost 40 years, but more as a user 
and abuser of Marine Corps Reserves than as someone who knew 
the intricacies of the other 90 percent of how they spend their 
lives.
    I will cut to the quick. The Marine Corps Reserve today is 
probably as experienced and is combat-ready like no other time 
since the early 1950s. I had never heard the term ``Operational 
Reserve'' before I came to this job. The Marine Corps Reserve 
is in fact, and has been since 9/11, a fully functioning 
Operational Reserve. It is very strong, it is very combat-
effective.
    As a total force we share all of the difficulties and 
successes of equipment, fielding shortages that the active 
component--we are equal in the way that we receive equipment. 
Those going to the fight get the equipment and the best 
equipment first. It doesn't matter if they are reservists or 
active duty. So as I say, we have very definitely been an 
Operational Reserve now for almost 10 years.
    What is very very interesting to me as I get around and 
talk to reservists, in the last six months that I have had the 
command--and this has been mentioned before--the two things 
they want to do is get back into the fight. Most of them, the 
vast majority of them, have served in the conflict, either in 
Afghanistan or Iraq, at least once, many of them two and three 
times, and they volunteer to do that. They also don't want to 
be put back on the shelf. Even if this war were to end 
tomorrow, they still want to stay in the fight, so to speak, 
doing these state-of-cooperation missions that all of the 
combatant commanders (COCOMs) scream for every day. And 
indication of this, frankly, is that our recruiting is good, 
our retention is good, and the families are happy.
    And certainly, as I say, it is an honor to be here, and I 
look forward to your questions.
    Mrs. Davis. Thank you.
    [The prepared statement of General Kelly can be found in 
the Appendix on page 101.]

STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF, AIR 
                         FORCE RESERVE

    General Stenner. Chairwoman Davis, Congressman Wilson, 
members of the committee, I am very pleased and proud to be 
here today to answer some questions and give you some 
perspective on what is happening with our Air Force Reserve. I 
brought with me Chief Master Sergeant Dwight Badgett, and he 
was our Command Chief Master Sergeant and helps me with the 
sustainment and maintenance of our strong component force.
    I believe as you opened, Chairwoman Davis, on the 
discussion on sustaining the Strategic Reserve and the 
operational force, my perspective is we are first and foremost 
a Strategic Reserve. I believe we leverage that on a daily 
basis to provide that operational force that we send around the 
world on a rotational basis, maintaining and sustaining each 
and every mission set that our Air Force has. And we work 
together as a three-component Air Force to do that, and we are 
integrated seamlessly. We train to the same standards and we go 
wherever and whenever called in this nation's defense.
    So sustaining that Strategic Reserve keeps the basis of 
that operational force strong. I think we need to do that, even 
more so in this world, where we are adding new mission sets, 
where we have to rebalance our force to do that, and we have to 
remember first and foremost that we do all of what we do with 
that citizen airman, that citizen warrior, that person that has 
three parts to their life. And they have to balance that life 
such that they can sustain and maintain their civilian career, 
which I do not want to impact.
    Their employer is a big piece of that. I need to work with 
that employer to make sure that that happens. I want to make 
sure that their families are sustained and maintained as well. 
And then I want to make sure that they have a military career 
that they can grow and broaden in as well.
    That then takes me to how to create the senior leadership 
for tomorrow, because we aren't the same Reserve as we were in 
the past. The senior leadership has got to understand the kinds 
of things we do as a joint team, the kinds of things we do as a 
seamlessly integrated Air Force. In order to do that, we have 
got to get them outside of the standard stovepipes and the 
career paths they have been in. That manpower, that personnel, 
that citizen warrior that is balancing those three parts of 
their lives, has got to be able to volunteer and go when they 
need to go and when they can go. I need to sustain that so that 
they are going to stick with us, I need to watch and monitor 
the dwell, and I want to do that with our active component and 
our Guard compatriots as well.
    The pressures are not going to lessen, the realities are 
there, the budgets are going to be tough, and in those tough 
times I want to preserve that capability and that strategic 
force. And I believe that our Guard counterparts here would 
join me in saying that in order to do that we need all the help 
that you can give us and that we can sustain and maintain this 
Reserve Component as the nation needs.
    Thank you very much. I look forward to your questions.
    Mrs. Davis. Thank you.
    [The prepared statement of General Stenner can be found in 
the Appendix on page 121.]

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Chairwoman Davis, Ranking Member Wilson and 
distinguished members of the committee, thank you very much for 
the opportunity to discuss issues of vital importance that 
impact the well-being, the lives of our 108,396, as I count 
them today, Air National Guardsmen, their families, and their 
employers.
    Seated behind me is Chief Master Sergeant Chris Muncy. He 
is the Command Chief of the Air National Guard, representing 
over 90,000-plus enlisted members of the Air National Guard. 
Air National Guard airmen are volunteering at unprecedented 
rates, risking their lives daily because they strongly believe 
in what they are doing for our country and our communities.
    Since 9/11, 146,000 Air National Guard members have 
deployed overseas, many of them on second and third rotations; 
75 percent of those in combat zones as volunteers. In the past 
year alone, we have deployed 18,366 service members to 62 
countries and every continent, including Antarctica.
    The Air National Guard proves day in and day out that we 
are available and that we are accessible, we are there for the 
federal fight and for our communities also. In the past year, 
Air National Guard members have helped their fellow citizens 
battle floods, mitigate the aftermath of ice storms, fight 
wildfires, and provide relief from the devastating effects of a 
tsunami.
    Earlier in the year, Guard members from Kentucky, Arizona, 
and Missouri responded to debilitating ice storms which 
resulted in the largest National Guard call-up in Kentucky's 
history.
    Last spring, North Dakota, South Dakota, and the Minnesota 
Air National Guard members provided rescue relief and manpower 
in response to Midwest flooding.
    In September the Hawaii Air National Guard sent personnel 
from their Chemical, Biological, Radiological High-Yield 
Explosives Enhanced Response Force Package (CERFP), a command 
and control element, and a mortuary affairs team to American 
Samoa in response to an 8.4 magnitude earthquake-generated 
tsunami.
    These are just a few of the examples of how Air National 
Guard members provide exceptional expertise, experience, and 
capabilities to mitigate disasters and their consequences. 
Without the stewardship of your committee, our airmen would 
have an incredibly difficult time doing their jobs and taking 
care of their families and their employers taking care of them. 
We are thankful for everything you have done and continue to do 
for our members, and we know that America cares about them and 
is grateful for their sacrifices.
    In conclusion, Madam Chairwoman, and to the committee, 
thanks again for inviting me to speak on behalf of our military 
and civilian members, their families, and our employers. I look 
forward to your questions. Thank you.
    Mrs. Davis. Thank you.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 135.]

   STATEMENT OF MAJ. GEN. RAYMOND W. CARPENTER, USA, ACTING 
                 DIRECTOR, ARMY NATIONAL GUARD

    General Carpenter. Chairwoman Davis, Ranking Member Wilson, 
distinguished members of the subcommittee, I am honored to 
represent more than 361,000 citizen soldiers in the Army 
National Guard. As I speak, 52,355 of those soldiers are 
mobilized, deployed, and on point for this nation. These 
soldiers joined our force knowing that they would deploy. They 
are willing to make a difference in the world and defend our 
country. Army National Guard soldiers are part of the 
Operational Reserve. Your Army National Guard is accessible and 
it is important that we fully resource those formations and 
ensure that they maintain the highest levels of readiness. The 
sacrifice of those soldiers, their families, and employers is 
something we must not only acknowledge but fully appreciate.
    The National Guard today is dramatically different from the 
one I joined over four decades ago. The last eight years have 
seen the Guard transform from a Strategic Reserve to an 
operational force, and the enablers of the Army National Guard 
have been provided and sustained by congressional initiatives, 
and we thank you for your continued support.
    I want to specifically mention our request for increase in 
non-dual status technicians from 1,600 to 2,520. Non-dual 
status technicians work primarily in personnel administration, 
contract management, information technology, and similar 
support functions. With the Army National Guard's frequent 
mobilizations, we find that we need these non-deploying 
civilian technicians to fill critical positions in our 
generating force. Filling these positions with dual-status 
military members who deploy creates a disruptive work flow.
    As we talk about the Operational Reserve, among the 
questions we get is, What is a soldier's perspective? The 
answer for us can be found in our experience over the last 
eight years. After 9/11 we mobilized the first wave in the Army 
National Guard, and they went to war and they did a great job. 
When they came back, some of them realized that that wasn't 
what they signed up for, and they talked to their employers, 
they talked to their families, and they looked at the outlook 
and they decided that they would not stay with us because it 
didn't fit into their future plans. And so we saw our end 
strength go from 350,000 to 330,000.
    We changed our recruiting processes, we directed our 
efforts at a segment of the population who wanted to serve 
their country and go do their patriotic duty. We turned that 
trend around to where we had 368,000 soldiers inside of our 
formations, a high point in February of 2009, and we have since 
come back to around 358,000. We are exceeding our recruiting 
goals, we are above our end strength of 358,000, not below it 
as of today. Our retention rate is over 110 percent. And this 
would not be true if the soldiers did not want to be part of an 
operational National Guard.
    General Campbell, the force's command commander responsible 
for training and deploying the Army Guard, has said the 
Operational Reserve is a national treasure, a treasure which we 
abandon at our own peril.
    Again, I want to thank you for your support for our 
operational National Guard today, and I look forward to your 
questions.
    Mrs. Davis. Thank you.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 142.]
    Mrs. Davis. Thank you to all of you, and for keeping in 
such a short time frame. We appreciate that. And we know that 
you have a great deal to say, but this way perhaps we can talk 
through the questions. And I would certainly encourage you--if 
you feel at the end that we haven't addressed something that is 
really important and critical to you, I will try and get back 
and ask that question. But if I don't, then please bring it up 
so we can have that on the record, because we know there is a 
lot that you have been working with.
    I wonder, Secretary McCarthy, if you might just speak for a 
few minutes about the recommendations. The Commission on the 
National Guard and Reserves, as you know, released its final 
report on January 31, 2008 with 95 recommendations. And the 
Secretary of Defense determined that there were 82 of the 95 
that the Department was required to take action on or continue 
action that had already begun. And he further directed the 
appropriate services commands and agencies to develop an 
implementation plan for 53 of those recommendations.
    I am not going to ask you to go through all 53 of them. But 
of those--and I think there were a few that you called out in 
your statement as well. If you could kind of give us a general 
assessment and what concerns you the most of those 
recommendations and the ability to really drill down and to 
make sure that they are accomplished, or are there some that 
you think quite honestly weren't quite realistic in what they 
were asking?
    Secretary McCarthy. Madam Chairwoman, as you say, the 
Secretary approved the vast majority of the Commission's 
recommendations. Some, he felt at the time, and we feel, were 
already accomplished. But there is a long list that needs to be 
accomplished. And quite frankly, I don't think we have moved as 
fast on implementing them as I would like, as I suspect some of 
my colleagues here would like. But we have made some 
substantial progress on some of the more important ones.
    In the opening, both you and Congressman Wilson mentioned 
equipment. And two of the recommendations, number 42 and 43, 
dealt with the transparency and accountability of Reserve 
equipment. And I think we have made tremendous progress in both 
of those areas. We are not all the way there yet, by any 
stretch of the imagination, but we have a much better handle on 
what Reserve equipment is, where it is, what is needed; and, 
where there is exchange of equipment between the active 
component and the Reserve Component, tracking and tracing that 
and replacing it where necessary. So I think that is a sign of 
real solid progress.
    We have made good progress on the Yellow Ribbon Program. 
Again, we are not done yet, but we have made substantial 
progress. One of the Commission's recommendations that 
languished for a long time but has now been fully implemented 
is the creation of the Governors Council. The President 
appointed ten Governors who have already had their first 
meeting with Secretary Gates and Secretary Napolitano, and that 
is going to be a continuing dialogue between ten Governors 
drawn from the National Governors Association and the 
Department of Defense and Department of Homeland Security. 
Others are in process. They are in stages. And a lot of them 
are complex things, personnel kind of issues that are not going 
to be solved overnight. But I do think we are moving forward. 
And we certainly have that on our plate. We know what we need 
to do and we are not going to stop until we get to the end of 
that.
    Mrs. Davis. Thank you. I appreciate your response.
    I wanted to just go back to the equipment for a second, 
because I know that that was certainly a great concern, because 
the requirements are such that we are dealing both for training 
in theater, bringing back, and then also in the communities and 
for homeland security as well.
    Would any of you like to comment on that in terms of just 
some direction to us, because through the appropriations 
process we know this is being addressed, but it is that balance 
that has been so critical? And I wonder if you have had some 
experiences that have thrown up some alarms and you want to be 
sure that we are aware of them.
    General Stultz. I will chime in first from the Army Reserve 
perspective. As Secretary McCarthy said, we have made great 
progress. We have come up approximately 10 percent or better in 
overall equipment in the Army Reserve, somewhere to the range 
of about 80 percent of equipped, which is the best we have been 
in years.
    The concern I have got is twofold. One is we are still only 
about 65 percent modernized. A lot of the equipment we have, 
while we have it on hand, is not the modern equipment, it is 
still old equipment. And so there is still a lot of work to be 
done in that capacity.
    Secondly, as we have transformed the Army Reserve from the 
old strategic to an operational force, we are transforming 
structure inside the Army Reserve. And we are building more 
capability that the Army and the nation has identified they 
need to fight the future wars; such things as military police, 
engineers, civil affairs, logistics, medical, those types of 
capabilities. That comes with a bill, because those units are 
new equipment bills that are still out there.
    I could tell you, to get to where we are going to be in 
fiscal year 2016, the unfunded equipment requirement that we 
still have out there to meet the new requirements and to 
modernize the equipment we have got on hand right now is about 
$11.3 billion. So it is significant. But thanks to your support 
and thanks to the support of Congress, we have made great 
strides. We are critically dependent upon the National Guard 
and Reserve Equipping Account, the NGREA, because those dollars 
give us the flexibility to prioritize within our force what 
equipment we think we need immediately; whereas, with the 
regular appropriations, that falls within the Army's program 
and it gets lumped in with theirs. Even though, as Secretary 
McCarthy said, we have made great progress in terms of 
transparency, the NGREA really gives us the flexibility to meet 
immediate needs that we can prioritize ourselves, so we 
appreciate all the support that we get on that account.
    Mrs. Davis. Thank you. My time is essentially up. We are 
going to try and stick to the five minutes, but would anybody 
like to make a comment specifically on this?
    General Kelly. If I could, on the equipment. As a part of 
the total force we are--as I mentioned in my opening 
statement--given the equipment first if we are going next to 
the fight, and if not we wait, but not at the end of the line, 
after all of the active duty people are provided equipment. At 
home station we leave our equipment behind as we go forward, 
and so we are in good shape. It is called a training allowance. 
We have just enough to train the Marines with and the sailors 
that serve with us. So we have no problem in that regard.
    But overall, the Marine Corps Commandant has talked in 
terms of about $13 billion required right now to reset the 
total force, and that would include the Marine Corps Reserve. 
So that is a number I would throw out for total force reset, 
$13 billion and some change. Thank you.
    Admiral Debbink. And, if I may, I just wanted to emphasize 
one of the points that General Stultz made, in that I think it 
relates to the subject of this hearing as we seek to figure out 
the roles between the active component, the Reserve Component, 
and the balance thereof, our goal is that we look to 
complement, not mirror. And one of the advantages we believe 
the Reserve Component brings to our nation is agility and 
innovation, because our active components need to be locked 
into what they are doing for the defense of our nation.
    And so if we are going to be innovative and agile, this 
National Guard and Reserve Equipment Account is very important, 
because in the year of execution, then, we can direct those 
dollars to where our nation needs them most.
    General Carpenter. Chairwoman Davis, as you know, the Army 
National Guard is one of the first responders in terms of 
emergencies and disasters in our responsibility as a dual 
mission and in support of the Governors. And in the last five 
years the investments that you all have supported in terms of 
$32 billion worth of equipment into the Army National Guard, $5 
billion of which came from the NGREA account, has raised our 
equipment fill for what we call critical dual-use equipment--
that being equipment that can be used in emergencies and 
disasters as well as that equipment that is deployed into 
theater--has gone from a percentage of around 40 percent to 
where it is currently at 83 percent across the nation. And so 
it has turned a dramatic turn to the positive, courtesy of what 
you all have done.
    General Stenner. Madam Chairwoman, if I could just make a 
very small nuance to the National Guard and Reserve Equipment 
Account not buying anything new, but when we have the three 
component Air Force buying anything, we outfit the entire Air 
Force three components. But the NGREA is very, very critical in 
accelerating some of that where we have excess capacity. 
Marrying that up within our association, as we do in the Air 
Force, get our stuff and our people into the fight much 
quicker. So it accelerates some of the current existing as 
well.
    General Wyatt. I will be very brief. To add onto what 
General Stenner said regarding the NGREA account, but shifting 
the focus to equipment acquisition in the total Air Force, we 
are fortunate in that the Air Force utilizes all three of its 
components as a total force, and we are included in looking at 
the new weapons systems. The Air Force shares with the Air 
National Guard and the Air Force Reserve the situation that we 
have a lot of aging equipment and we are trying to 
recapitalize. And I think it is essential if we are going to 
keep the Reserve Component, Air Force Reserve and Air National 
Guard, as operational that we consider opportunities for 
concurrent fielding of those new capabilities, those new 
systems across all three components.
    That is the way we fight. And in order for us to be able to 
continue fighting and provide that ops tempo relief to our 
active duty component brothers and sisters, we need to fly the 
same equipment, train at the same levels, which we do now, and 
be fielded new equipment at the same time.
    Mrs. Davis. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Chairwoman Davis. And again, I want 
to thank all of you for your service.
    It is my view that by providing young people the 
opportunity to serve in the Guard and Reserve, you are 
providing them extraordinary opportunities. It is very 
fulfilling for the young people, the networking of friends, 
lifelong friends, that they will make. And it is wonderful for 
me to hear the success of recruiting and retention, because you 
are making a difference in people's lives and protecting our 
country simultaneously. And I have really enjoyed the 
references to this is no longer the one weekend and two weeks 
in the summer Guard and Reserve.
    And General Carpenter, it is an understatement that what I 
served in is different. But I saw the difference start with the 
extraordinary service of the Army National Guard and other 
Guard and Reserve Forces to recover from Hurricane Hugo in 
South Carolina in 1989. Then came the Persian Gulf service. 
That was extraordinary.
    And then I know from our own family service in Iraq and 
Afghanistan, and so many of my colleagues that I recruited, 
they are so proud of their service and they do want to be 
operational.
    With that, another fact, Secretary McCarthy, is that it is 
so difficult to distinguish between Guard, Reserve, active 
duty, except on the issue of retirement. And so I certainly 
hope that we can make some changes. And in particular, current 
law allows the mobilized Reserve Component member to earn three 
months credit toward early retirement for every 90 days of 
aggregate service on active duty. Congress intended for those 
to be active duty to be counted, regardless of whether the 
active duty period occurred across fiscal years. But the 
Department somehow has implemented this, that if it is across 
the fiscal years, that it doesn't count at all.
    What is DOD going to do to fix this or what should we do to 
clarify? But there is no question that we certainly meant to 
disregard fiscal year.
    Secretary McCarthy. Congressman Wilson, I am well aware of 
that anomaly. I think everybody understands that it is not what 
the Congress intended, and it is not what is--it is not the 
right thing to do. So it is going to take a fix. I am not sure 
whether it will be a legislative or a directive fix. I suspect 
it will be the latter--I am sorry--I suspect it will be the 
former, and that we will have to come to Congress on that. But 
I know that it is on the agenda to be resolved.
    Mr. Wilson. And then I hope it will be resolved as quickly 
as possible.
    Additionally, we have a circumstance where we have 
mobilized Reserve Component members who can earn retirement as 
reservists or Guard members wounded or injured. If they are 
placed in a Wounded Warrior unit under the orders of the 
Wounded Warrior, again, they don't receive credit for 
recovering--for the period of time recovering from the wounds. 
And again, I just know my colleagues and I did not mean for 
that to be. So I hope that is corrected--or please give us 
advice how we can correct it.
    Secretary McCarthy. The change of a Wounded Warrior status 
when they are mobilized, wounded, and then have their status 
changed is purely a directive issue. It is something that was 
done a couple of years ago, and I think that the result that 
you have described was an unintended consequence, but it has 
got to be fixed. And I know that the people in personnel, in 
readiness, have that for action.
    Mr. Wilson. And I appreciate the effort, because we know 
that these troops are so dedicated they want to be operational, 
they want to serve. But it is also very important for their 
families that there be proper protection.
    General Kelly, I am of course very grateful to represent 
Parris Island Marine Corps Air Station. So whatever I can do to 
promote the Marines. The Marine Inspector and Instructor 
Program historically has been a key to the success of the 
readiness of the Marine Corps Reserve. Given all the demands on 
the active duty Marine Corps who are assigned to the Inspector 
and Instructor Program, what is your assessment of the health 
and effectiveness of the Inspector and Instructor Program?
    General Kelly. It is very healthy. And in fact in this very 
hearing room, about 15 years ago, hearings about why the Marine 
Corps Reserve was very, very strong, the body that sat here at 
that time talked in terms of one of the great strengths of the 
Marine Corps Reserve was in fact our commitment of active duty 
individuals to INI, Inspector and Instructor, type staffs. It 
is a command billet. They are all combat veterans, they are 
handpicked, they do well in future promotions, selection for 
attendance at various service schools and whatnot. So my 
overall assessment is that it is hugely healthy, and really is 
probably the basic foundation of the great strength of the 
Marine Corps Reserve.
    Mr. Wilson. Thank you all very much.
    Mrs. Davis. Thank you. Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair. Gentlemen, it is great 
to have you all here. I have probably known you, General Kelly, 
the longest. And I think you have had about as many promotions 
in the time I have been here as I have had babies, so I think 
it is time for me to move on. We have four little boys under 
the age of four at home.
    I also did note, General Kelly, that your obviously very 
proud daughter was watching you testify. We appreciate her 
service here, although she was watching the TV screen rather 
than you live. I don't know what that means.
    I have two questions that I want to ask and then let you--
we will just start with Secretary McCarthy and go down, and I 
am sure my time will long pass.
    The first one is our subcommittee has just completed a 
study that is about to go to the printer, I think tomorrow, on 
professional military education (PME). There are, I think, some 
special considerations for the Reserve Component, and I would 
like to get each of you to make any comments about where you 
think PME ought to be improved with regard to the Reserve 
Component.
    And then the second question is, if you have any comments. 
We have given the highest ranks of civilian and military 
leadership an opportunity to make any comments they wanted to 
personally on Don't Ask, Don't Tell. The Reserve Component also 
has some particular special dynamic there in which people 
really can separate their lives. They may have a private life 
200 or 300 or 400 miles away and keep their lives pretty 
separate. On the other hand, if they get mobilized, their 
partner really doesn't get any of the support from the 
community because of the fear of coming forward. So if any of 
you have any comments about that.
    Secretary McCarthy, we will begin with you.
    Secretary McCarthy. Congressman, I think the thing I would 
say about PME, Professional Military Education, is that we have 
made great strides over the past ten or more years in distance 
education, and we need to continue to do that because that is 
what makes a lot of our PME courses more available to Reserve 
Component members if they can do them on a distance education 
basis. So I think we need to continue along that same path.
    With regard to Don't Ask, Don't Tell, I think that the 
course that the Secretary has set out to do a very thorough and 
very comprehensive review, not to delay it but to move forward 
and do that, it is the right course, and it is going to help us 
to understand the different impacts of a change of law, if 
there is one, on various parts of the force.
    I know that General McKinley is a member of the group that 
is being led by General Counsel Jay Johnson and General Hamm. 
So the equities of the Reserve Component, and especially those 
of the National Guard, will be considered when that study is 
being done. So I think we are moving in the right direction 
there.
    General Stultz. Yes, sir. With regard to the professional 
military education, I think, echoing the remarks that Secretary 
McCarthy said, the distance education has given us the 
capability to accomplish a lot of the professional military 
education that we need in the Reserve Components. As much as we 
can, where we can level the playing field so that the education 
that is being provided is the same education across the active 
and Reserve, because as we have operationalized the force, 
those individuals now are working side by side. And so we need 
the same quality and the same instruction. And so within the 
distance education, we have got to make sure the curriculum 
matches across the force.
    I think the other thing we have to take into consideration 
is the tendency is with our force generation cycle, the 
cyclical deployment of forces, when the units come back from 
deployment, that is when you would--in that year of reset is 
when you would get your education done. In the Reserves we have 
to recognize that that soldier has to reset in their civilian 
job also. And so we can't be too hasty to say, now that you are 
back, now you have got to get your education, military 
education done.
    We have got to give them time, because every time I came 
back from a deployment and went back to Procter and Gamble, my 
civilian employer, I reset at Procter and Gamble. I got into a 
new position, new training, new learning that I had to do.
    And so I am being very cautious to say we can't rush the 
professional military education too soon for a returning 
soldier. But I think the quality of the education is what I am 
focused on. It has got to be at the same level across the 
force.
    With regard to the Don't Ask, Don't Tell, I just echo the 
same remarks that Secretary McCarthy did. I think the process 
that has been set forth by the Secretary of Defense is the 
right thing: to take a long, hard look at all the factors 
involved before we make any decisions.
    Admiral Debbink. Congressman Snyder, with regard to the 
professional military education, for the Navy we have an 
account we call ADT, Active Duty Training schools account, a 
very important line item for us and one that we prioritize very 
carefully every year, as we are driving toward something we 
call Fit as well as Fill of our force. So we are not just 
trying to put any sailor in a spot, we are trying to make sure 
that sailor has the right training. So that is a very important 
line to us.
    The other element of professional military education that 
is very important is the joint professional military education 
(JPME). And at this point we are very pleased with the changes 
that were made in the last year or so that allow our sailors to 
pursue both the level I and level II. And level II is primarily 
through a distance learning--we call it advanced JPME--and also 
very important for their promotion as they go through their 
careers.
    General Kelly. Sir, all Marines regardless of component, 
have a requirement in all ranks to participate in PME. 
Obviously for the Reserve Component, time and distance is the 
issue you deal with most. All of the distance learning is 
exactly the same as what is available to an active duty Marine. 
Not all of our active duty Marines get to go to a resident PME, 
so they take the very same courses.
    For the Reserve Component courses, virtually all of them 
have a one- or a two-week on-site. We bring them to Quantico as 
an example. We pay for that, of course. Where I would like to 
see a little bit more flexibility is at the Lieutenant Colonel 
level. There are distance learning courses; the Army War 
College and Navy War College, all of them very, very good. I 
would like to see that expand a little bit just because it is--
I would like to see some more seminar time added; that is to 
say, weekends or something like that. Again, we would pay for 
them to come to a location and participate in the PME.
    And on the Don't Ask, Don't Tell question, again it is 
being studied. Again, I would only say that we don't make a 
distinction in the Marine Corps between active and Reserve 
Marines; they are Marines all the time. Whatever the rules are, 
if in fact they are changed, whatever the law changes are, 
whatever comes out of that, that will apply to the Marines that 
are in the Reserve Component just like they will the Marines in 
the active component.
    Dr. Snyder. General, that seminar time is something you all 
can do. There is no legislative prohibition.
    General Kelly. Internally we can expand some of our 
schools, but we got it, sir.
    General Stenner. Congressman Snyder, we, like my 
compatriots, all have opportunities, whether they be distance 
learning, whether they be seminar, whether they be in 
residence. We covet the in-residence courses for not only the 
book learning that you get, but for the relationships that you 
build, especially in the joint arena where you see people you 
will see again in the senior leadership roles over the years. 
Those relationships that are built in an in-residence PME 
setting are huge. So the more we can get some of those 
opportunities funded and built and created, the better we will 
be, in my mind, for the future senior leadership, whether that 
be officer or enlisted.
    And the enlisted force is just as busy, if you will, taking 
care of the in-residence pieces and the distance learning 
pieces that they need to do.
    On the margins of PME, there are some things in line with 
some of the fellowships and the other kinds of things that come 
up here that have different nuances as to how you incur a 
commitment and then how you would accomplish that commitment, 
which doesn't happen in some of the bigger PME schools. So if 
they are looking for just some little on-the-margin kind of 
things, special considerations, I would take a hard look at the 
fellowships and how we pay back the time on the commitment we 
incur.
    As far as Don't Ask, Don't Tell, I do agree it is part of 
how we do business today. It is in accordance with what we have 
been handed as far as the policy and the law, and it needs to 
be studied in depth, as we are doing, before we make any 
substantive changes.
    General Wyatt. Congressman Snyder, regarding PME, there is 
a theory in the Air Force, because we fight as a total force, 
that there should be more shared common experiences in 
professional military education.
    As a result of that, just recently the Air National Guard 
has worked with the area Education and Training Command, 
General Moran is the commander, to move the commissioning 
program of the Air National Guard from McGhee Tyson to Maxwell 
Air Force Base, where now we have all three components in the 
same location with a commissioning program. We retain different 
course links to accommodate the different needs of the 
components, but we are sharing curricula now and we are 
learning more about the active component and the Reserve 
Component and vice versa. So that is at the very basic level.
    But as we get to some of the advanced officer and enlisted 
experiences, I think there is a need for more seats in the 
residence programs. Chief Muncy working behind, or sitting 
behind me, has some initiatives that he is working with Command 
Chief Master Sergeant of the Air Force Roy, seeking additional 
residence seats. We are seeing very good reception from the 
active duty component, and I think we are making progress.
    In regard to Don't Ask, Don't Tell, I share the comments of 
most of my committee members. I would suggest that you know, 
from my perspective, my experiences and where I work and where 
I live are considerably different from first-term airmen who 
may be serving in Balad or Baghdad. And I am not sure I am 
educated to the point that I need to be to make sure to render 
any sort of professional opinion at this point in time.
    We have the Commission that the Secretary has mentioned 
that is collecting data, and we have the opportunity to hear 
from our enlisted corps, 90,000-plus in the Air National Guard, 
and our officer corps as we go forward on this important issue.
    General Carpenter. Congressman Snyder, I share all the 
views of my colleagues. I would point out one additional area 
and expand on the joint qualification piece that Admiral 
Debbink talked about. And that is that we need to make sure 
that we provide the opportunities for our young officers to get 
the joint qualification through the PME process, so that later 
on when they compete for some of the jobs, specifically like 
the job that I am acting in, the Director of the Army National 
Guard, and build a bench for the new four-star general that we 
have got inside of the Army National Guard, that we do have a 
bench that can compete for it and does have the qualifications. 
And so that is pretty important as you get to the senior levels 
of our organization.
    The DL, distance learning, piece of PME is incredibly 
important when we have soldiers out there who are trying to 
balance their family requirements as well as their employers' 
needs as they get back from deployments, and yet try to make 
sure that they are competitive in the ranks in terms of 
promotions.
    And then finally, we are participating in the study group 
for Don't Ask, Don't Tell, and we are awaiting the end of that 
study group, which I believe is a year down the road.
    Dr. Snyder. Thank you.
    Mrs. Davis. Thank you. Ms. Tsongas.
    Ms. Tsongas. Good afternoon. And thank you all for your 
testimony. As this hearing is about the operational role of our 
Reserves, I am particularly interested in an issue that 
concerns our Guard and reservists and their readiness for 
deployment.
    General McCarthy, you mentioned the, quote, trained 
mobilized, deployed model for an Operational Reserve. What do 
you all know about the issues of Rapid Fielding Initiative 
(RFI) equipment fielding for Guard and Reserve units during 
pre-mobilization training?
    And I bring this up because in 2009, the Massachusetts Army 
National Guard trained and mobilized over 1,000 soldiers for 
deployment in Iraq and Afghanistan. In order to limit the total 
mobilization time to 12 months, the predominance of 
mobilization training took place at the unit's home station in 
Massachusetts, not at the deployment mobilization site.
    The RFI, the Rapid fielding initiative, was designed to 
streamline the process in distributing equipment to deployed 
units and ensure that all soldiers, regular Army Guard and 
Reserves are outfitted with the most advanced individual and 
unit equipment available, providing significant improvements to 
soldier combat effectiveness, survivability, and operational 
quality of life.
    The program is commendable. However, there appears to be a 
disconnect. Instead of being issued during pre-mobilization 
training in Massachusetts where soldiers have time to properly 
train with the equipment, they are going to fight with RFI. 
Items are being issued to soldiers after they have reached 
their mobilization phase. Soldiers stay at their mobilization 
station for a short time before going to Iran and Afghanistan. 
Because of other demands, they sometimes have as little as 15 
days to train with this new equipment.
    This is unacceptable. Lives are at stake. And in fact, in 
conversations with a National Guard officer in my district, he 
really felt he lost a soldier because he simply had not had 
adequate time to train.
    So despite the recommendations of the Commission, it 
appears that our National Guard and Reserve soldiers are being 
given insufficient time to train with the equipment they are 
going to fight with, often to their peril.
    Please tell me what you all are doing to solve this 
problem. What are the obstacles, and are there things that we 
can do to help alleviate this issue?
    General Carpenter. Congresswoman Tsongas, thank you for the 
question. As you have eloquently outlined, RFI has been a 
problem inside the Army National Guard and the mobilization 
process. RFI came into our organization about four years ago 
and it was a rapid fielding initiative to ensure that we got 
the best, most modern equipment to our soldiers in advance of 
the mobilization, so that when they deployed they had the best 
equipment available for the mission at hand.
    RFI is a changing kind of equipment list, and we want to 
ensure that our soldiers have the most modern equipment. We 
have seen two versions of helmets come through the process here 
in the last five years. We have seen various other equipment 
changes.
    The Army's view of this is that rather than issue one set 
of equipment and then have to go back and reissue another set 
of equipment, the idea was to issue the most modern equipment a 
single time. And because of the limited amount of production of 
these specific pieces of equipment, the effort was to do that 
in mobilization station.
    We have found that we want to maximize boots-on-the-ground 
time, that being the time that this soldier spends on mission 
in theater, because that reduces the time that--what we call 
the turn, and extends the dwell.
    We have worked with the Army to do the fielding of RFI to 
the extent possible in pre-mobilization to reduce the time at 
the mobilization station, and we are looking at a year down the 
road when we think that we will have RFI. It won't be called 
RFI, but it will be equipment that will be issued in pre-
mobilization, and we will solve the problem that you have just 
described.
    Beyond that, soldiers that deploy into theater are 
validated, and they meet a standard in training before they can 
deploy. And so regardless of whether it is issued in pre-mob or 
whether it is issued in post-mob, the training that takes place 
for those soldiers to be able to use that equipment and to be 
successful in its use is validated by the First Army Commander. 
So the deployment piece, everybody meets the same standard. 
There isn't anybody that goes down range that doesn't get 
trained.
    Ms. Tsongas. Do others want to comment?
    Secretary McCarthy. I would like to add, and I think 
General Carpenter has really hit the specifics, so I will 
address it from a little broader standpoint, and that is that 
this transition to an Operational Reserve--that is, to a pre-
trained, a Reserve that is trained, then it mobilizes and then 
deploys--is a process, and we are not going to throw the switch 
and become a totally Operational Reserve overnight.
    And the equipping issues are a significant part of that. 
The training issues are a significant part of that. And so we 
are going to be constantly progressing, and I hope improving in 
this becoming a pre-trained force, a pre-equipped force, with 
things like the Rapid Fielding Initiative and other ways to get 
modern frontline equipment out to units. But it is not going to 
happen overnight.
    But I think the concluding comment, if I understood Ray's 
comment in conclusion, I don't think any commander is going to 
stand forces forward who have not had sufficient training time 
with the equipment that they are going to use in combat. And if 
that means less time with boots on the ground, I think that is 
a price we are all willing to pay, because we are not going to 
send people forward who are not both adequately equipped and 
adequately trained. So I know that is the policy of the 
Department, and everything I have seen is that it is being 
carried out.
    Ms. Tsongas. Thank you for your testimony. And I think if 
you find it is harder to do than you like to think, that you be 
forthcoming with us as to ways that we can be more helpful.
    Mrs. Davis. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair. First I do want to 
thank all of you for being here today, all the witnesses. And I 
would like to thank especially the chairwoman and ranking 
member for holding this hearing, because I really do believe 
this is an absolutely critical topic.
    General Carpenter, I am glad to see you again. I think the 
last time we chatted it was about the trainees, transients, 
holdees, and students (TTHS) account, and I am glad to see you 
mentioned its creation in your testimony today as well. The 
President's budget request includes an increase of 920 non-dual 
status technicians.
    General Carpenter, you spent quite a bit of space in your 
testimony discussing the role and importance of non-dual status 
technicians and why this increase in their authorization level 
is necessary.
    Can you please explain to us why these particular 
individuals are particularly important to supporting the Army 
National Guard as an Operational Reserve?
    General Carpenter. Sir, just as one example, one of the 
things that these non-dual status technicians do for us in the 
National Guard is they work inside of our pay sections. And one 
of the most irritating things that you find that soldiers deal 
with and one of the things that we want to avoid the most are 
pay problems. Those non-dual status technicians are the experts 
in that area and they spend a lot of time doing that. If we 
have a soldier who works in that pay section, who is also in 
the National Guard, and we mobilize and deploy them, we lose 
that expertise. And if we have a non-dual status technician 
that stays there while the unit deployed, because they are not 
in the National Guard, it reduces the pay problems, in this 
particular example, incredibly and it is the right thing to do.
    Mr. Loebsack. I do appreciate that very much. I hear about 
this all the time, obviously, from the National Guard folks I 
represent in Iowa, so I really appreciate you putting that 
effort into that program. I think it is critical that we look 
at the force structure requirements associated with the 
Operational Reserve and I do appreciate that response.
    My second question, of course, is about dwell time. And the 
President's budget request cites a planning objective of 
establishing a 5-to-1 ratio for Reserve Components.
    General Carpenter, if you want to speak to that issue too, 
that would be great. Could you tell me if you believe that 
current end strength is, in fact, sufficient to achieve this 
goal, and what impact in particular this cross-leveling has on 
dwell time?
    General Carpenter. The effect that cross-leveling has on 
dwell time inside the Army National Guard is evidenced by the 
statistic that on a unit scale inside the Army National Guard, 
we are deploying units that have a dwell time of 3.3 years. For 
the soldiers, mostly first-termers, who come into our 
organization, because we have to cross level them between units 
that are deploying and the ones that are home, the dwell time 
on average for deploying soldiers is 2.2 years. That is pretty 
quick. And so our effort here is to reduce the amount of cross-
leveling and extend the dwell time.
    The Surgeon General of the Army says that it takes 
somewhere around two years after a one year deployment for 
soldiers to get back to something that looks normal in terms of 
their emotional status and behavioral and all those kinds of 
things that deployment impacts. And so to the extent that you 
increase the dwell time, you increase the readiness of the 
soldier, you increase the support of the employers and families 
out there for what we are doing with an Operational Reserve.
    Mr. Loebsack. I am glad you mentioned the employers and 
families, too, because this subcommittee under the current 
leadership, and in the past as well, has looked quite a lot at 
the family. And I think it is really, really critical that we 
never forget about the family, these folks, not just spouses 
but the rest of the family as well. So I really appreciate all 
of you being here today.
    Mr. Secretary, did you want to speak at all to the dwell 
time issue before my time is up?
    Secretary McCarthy. I would only add that the Secretary has 
established this 1-in-5 ratio. It is a goal. We are clearly not 
there yet. The application is somewhat different across the 
services. But coming out of the Quadrennial Defense Review, we 
are directed to conduct a study on the future roles of the 
Reserve Component, and I think that may lead us to some further 
understanding and perhaps even some refinement of some of the 
things we think now about dwell time and other related issues. 
So I suspect that that study will be completed early in 2011. I 
think there will be some additional learning, some knowledge 
available to the Congress on that and a number of other issues.
    Mr. Loebsack. I just want to finish by saying as someone 
who represents a district in Iowa where we don't have, as I 
always say, large bases as such, but we have a heck of a lot of 
wonderful National Guard and Reserve Components, I appreciate 
everything that the National Guard and Reserve Components are 
doing. And we do have a number of our folks heading to 
Afghanistan later in the year to stand up an agriculture 
development team and to train security forces in Afghanistan. 
And General Orr is doing a great job as our adjutant general, 
so I am going to do everything I can as long as I am on this 
committee and in Congress to support folks like you and those 
who are under your command. Thank you very much.
    Secretary McCarthy. Thank you sir.
    Mrs. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Madam Chairman, thank you very much. And General 
Kelly, it is good to see you again. You took me back 15 years. 
I didn't know you would be here today. When I saw you, I went 
back 15 years just in a matter of seconds. But it is good to 
see you.
    General Carpenter, I guess you and Mr. McCarthy, this has 
been kind of an ongoing issue with a father of a National 
Guardsman in east North Carolina who was deployed on active 
duty, fought in Iraq, and this father has met me two or three 
times wanting to know why a Guardsman who has fought for this 
country, active duty, called upon, that they do not qualify as 
an active duty soldier or Marine with the GI bill for 
educational benefits.
    Is this an issue that you hear quite a bit about? I think 
that Senator Webb at one time was thinking about trying to put 
legislation in on the Senate side that would deal with this. 
And does this ring a bell with you?
    General Carpenter. I am not aware of the specific case that 
you cite, but I do know that one of the things we hear from 
National Guardsmen and from states out there is the GI bill, 
what we call the new GI bill, applies to soldiers who deploy, 
but does not necessarily apply to soldiers who are in a Active 
Duty for Training (ADT) status or a Title 32 status, and a lot 
of the soldiers that I talk to see that as an inequity, and so 
they raise that issue with us.
    I am not sure about the specific instance you talk about 
where somebody who was mobilized and deployed to the theater 
was not eligible for the GI bill, but if you will give me the 
details I will certainly look into it.
    Mr. Jones. That would be extremely helpful.
    Again, I think I am pretty much correct and your 
explanation makes a lot of sense. I might have been a little 
bit mistaken in my speech. But one of my biggest concerns to 
all of you is that when we continue--let's say that I know the 
President said we are out of Afghanistan in a year and a half, 
let's say something changes that year and a half, and we cannot 
confirm that we are out in a year and a half, and maybe then we 
decide, well, we need another year and a half or two years.
    What I am hearing from those in the Guard--and this is 
probably true in the Reserves as well--that they are beginning 
to feel the unbelievable stress that families feel of not being 
able to plan. If by chance--and I know this is a hypothetical--
but if by chance that in a year and a half that President Obama 
decides, well, the conditions are not right to have significant 
reduction so therefore I am going to continue to call on the 
Guard and Reserves, can you foresee this as a problem to meet 
and maintain the manpower that you need to do the job back home 
if called upon?
    General Carpenter. Sir, I would look to the example of 
North Carolina, sir. The 30th Heavy Brigade just had their 
welcome-home ceremony last weekend, and we had people there--I 
wasn't there personally, but typically it is one of those 
joyous events and people are just taken by the moment and they 
support the patriotism. That is the second rotation for the 
30th Heavy Brigade into Iraq, and they had a dwell of around 
three and a half years between those two rotations.
    One of the things that the Secretary of Defense did for us 
in the Reserve Component in January 19 of 2007, he limited the 
mobilization for Reserve Components to one year. And that 
really has allowed us now to access the Reserve Component and 
to sustain over a longer period of time the 30th Brigade, 30th 
Brigades we have out there, those kinds of scenarios.
    So right now, as I mentioned in my opening statement, 
although we are stressed, we are far from broken. And the 
soldiers that we have inside of our formations look forward to 
those deployments, maybe not at that frequency, but certainly 
we are able to sustain.
    Mr. Jones. General, thank you. I want to apologize. I 
missed everybody's opening statement. I didn't get a chance to 
read it, quite frankly, so if I am being repetitive again I 
apologize for that.
    But Madam Chairman, I will yield back at this time.
    Mrs. Davis. Thank you. I appreciate your question.
    I wanted to have a chance to talk a little bit about the 
continuum of service and the fact that the authorization bill 
did allow, and particularly in the Navy, for people to serve 
and then go into the Individual Ready Reserve (IRR). And I am 
just wondering--and they did that for up to three years for 
personal and professional reasons--Admiral, how do you see that 
working? How is it being implemented?
    And I think for others, are there other kind of continuum 
of service plans that we have? What problems have arisen, and 
is there anything legislatively that would give you more 
flexibility that you see is needed, and some thoughts about how 
that might be done differently if that is something that you 
would recommend? Admiral?
    Admiral Debbink. Thank you. The program you refer to we 
call Career Intermission Pilot Program (CIPP) or the--I can't 
say the exact acronym--allows people to transition from active 
deployment all the way to the IRR, retaining medical benefits, 
which is really important, and then to pay that time back when 
they come back, and it gives them a guaranteed return. It is 
one program out of many that we are developing in the Navy for 
pursuing our goal of being a top 50 employer of choice.
    And as we continue to pursue these different initiatives, 
one of the things we are focusing on is--the vision of where we 
are going is lane changes. So you have a Navy highway, if you 
will, and the active duty maybe is in the left-hand lane and 
you have a Selected Reserve (SelRes) in the middle lane, you 
have the IRR, and you want to be able to seamlessly change 
lanes back and forth.
    The one thing that is perhaps our biggest barrier right now 
in making all that happen is the pay system that we have 
currently and the need for a single integrated pay and 
personnel system that we feel that as a Department now, we are 
on a path to head in that direction with some of the 
authorities we have been receiving recently. And we hope that 
within the next couple of years we will get there. And that is 
what we need most perhaps, and we will continue working towards 
that direction.
    Mrs. Davis. I noticed in the comments that basically spoke 
about progress in moving toward the total force future pay 
plan. And I guess my question would be: What does progress 
represent? What would it take to speed up that process?
    Admiral Debbink. As I think you might be aware, we were all 
held back basically for a number of years, over a decade, as 
the Department pursued a program called DIMHRS, Defense 
Integrated Manpower and Human Resource System. We have, since 
February now, been authorized to pursue service-specific 
solutions. And I know the Navy is going after that very 
aggressively, and in fact there are some meetings again this 
week to allow us to continue pursuing down that path.
    It will be important as we go down that path to continue 
looking towards, we believe, a common database that we will all 
share, because the combatant commanders will want to have that 
kind of data and we are in full support of that as well. So at 
this point I believe it is just a matter of executing on a new 
software program and pursuing that, but also doing it carefully 
so we get it right this time because it is a very, very 
important issue for us.
    Mrs. Davis. Anybody else want to comment on that? What are 
the lessons learned from that as well? Sometimes we do try and 
do things that are going to be applicable and yet, as you are 
saying, that didn't work. Where are we, Mr. Secretary?
    Secretary McCarthy. One of the things--I have been watching 
this stuff for a long, long, long time. And one of the things 
that we have chased for years is trying to find a way to 
simplify a very complex structure of different kinds of duty 
statuses, different pay accounts and so forth. And it has 
defied successful resolution so far, but----
    Mrs. Davis. Sometimes I wonder whether we are looking in 
the wrong place for that kind of thing.
    Secretary McCarthy. You are absolutely right. I think 
sometimes we are our own worst enemies, but, frankly, since you 
asked what can the Congress do, some, not all, but some of the 
duty statuses that are engrafted onto our pay and personnel 
system are the result of various laws. And so we may at some 
point--I hope we will come to the Congress and say we have 
eliminated a number of the duty statuses that we imposed on our 
self through direction, and we would like the Congress to 
eliminate some of them that are imposed in law, because that 
will make the integration of a pay and personnel system that 
much easier and that much more achievable. And that will be a 
big step forward.
    That is a Commission on National Guard and Reserve 
recommendation. They said we should go down to two: either on 
active duty or not active duty. Frankly, that may be 
oversimplifying it, but it certainly can be reduced from the 
28, or whatever the number is, that we have now. And we may 
very well need the Congress's help in making that reduction.
    Mrs. Davis. Anybody else want to comment on the continuum 
of service issue?
    General Kelly. Yes, ma'am. Like anything, the devil is in 
the details. And I am not the expert in the Marine Corps, 
certainly. I don't think probably most of us up here are real 
experts in it in terms of the level of complications that we 
get into as we started this, down this road of continuum of 
service. So I would just, in my mind at least, hope that as we 
do that, we don't do a cookie cutter that will apply to each 
one of the services and the Guard in exactly the same way, 
because I don't think it is going to apply to the services in 
the same way.
    We have, as an example, very little interest, certainly in 
the reservists I talked to, about going into and out of various 
statuses in terms of getting off active duty for a few years. 
Certainly the active duty people, for the most part, don't 
express any desire. So a little caution about how we try to 
hammer this. I hope for flexibility.
    In terms of the admin and pay system, for the most part, 
the Marine Corps does have a single system. In fact, I can 
remember hearings in this room 15 years ago when we were being 
chastised about not going the DIMHRS road, and we resisted it 
and we resisted it and, lo and behold, we were right.
    So we have this system and it works pretty well for us. We 
have very, very few differences between the way the active duty 
and the Reserve people handle it administratively, so the ease 
of moving in and out of various duty status is not a real 
problem for us.
    General Stenner. Madam Chairwoman, a continuum of service, 
as articulated between, as the Navy put it, the active, Reserve 
and then the IRR, is one way to look at it. And in the Air 
Force we are looking at how you go between the Reserve 
Components, the Guard, the Reserve, the active force; because 
some of that is very helpful also in just what kind of 
participation can you do, whether it is IRR or SelRes.
    But as far as continuum of service and duty status, some of 
the kind of things that until we get that golden nugget that 
takes us to where the Navy or the Marines are right now, in a 
macro perspective, if there was a way to articulate some small 
changes in the law that would allow us to take the different 
statuses in and out of positions in headquarters staffs, the 
kinds of things that by law right now are limiting--you can 
only go in a certain status, you have to be assigned to a 
unit--we need to perhaps look as an interim fix on some of 
those kinds of things so our force development, especially at 
the senior levels, can happen much more easily. Take them into 
and out of the positions they need to be within their status or 
allow an ease of status or some head space for active duty 
status that doesn't count against our active duty force, and 
that would help tremendously in some of the interim fixes we 
could do right there.
    Mrs. Davis. General Wyatt.
    General Wyatt. Madam Chairwoman, as far as the Air and Army 
National Guard are concerned, there is another complicating 
factor, and that is we are not always on federal status. 
Sometimes we are placed on duty by the Governors under a 
completely different pay system. And so as we try to streamline 
the pay systems on the different statuses at the federal level, 
I think it is important to recognize that the adjutants general 
in the 54 jurisdictions have the additional problem of a system 
that sometimes has a soldier or an airman who might be on a 
state pay status for a couple of days as we transition into a 
Presidentially declared disaster or an emergency or a federal 
status.
    And to make those pay systems link up I think is worth an 
effort to consider not only the service inside the service, 
federal systems, but also a way to link those two, the myriad 
of pay systems out there in our states. It is just an 
additional problem we need to consider.
    Mrs. Davis. Thank you. Dr. Snyder, any questions.
    Dr. Snyder. No, thank you.
    Mrs. Davis. Okay. And Mr. Wilson?
    I have a few more, then.
    One of the issues, I know, that I think General Stultz, in 
your comments, in talking about the shortages in the midgrade 
noncommissioned and commissioned officer ranks, how do we 
address that? Where are we? And I know that goes across the 
board in terms of medical, a whole host of different 
professions. Is that true for everyone? Or is that more or less 
more true for you in the Army?
    General Stultz. Right now, one of the major campaigns that 
I have got one of my deputies developing is to reshape the 
Reserve, the Army Reserve, and the reason for that is to your 
point. We have had phenomenal success in recruiting the last 
several years, and grown our end strength way above what we are 
authorized now. But we are over strength in the lower skills, 
the lower grades. We are over strength in the senior grades. We 
are short in the middle, both in the captains and majors for 
the commissioned officers, and both for the E6s and E7s for the 
noncommissioned officers.
    Part of the reason for that is the Army Reserve 
traditionally has relied on soldiers leaving active service, 
coming into the Army Reserve as a supply of manpower. And so we 
were getting those soldiers coming off active duty with four, 
five years of active service, and by that time had acceded to 
the grade of captain or to their rank of sergeant.
    With the stop loss that the active Army has had in the last 
several years, which they are coming off of now, but as well as 
the incentives to keep people on active duty, we have seen that 
slow down over recent years. So it is a phenomenon of the 
supply chain got broken for a while.
    We are now seeing that turn around. And we are now seeing 
our AC to RC, as we call it, active to Reserve, starting to 
increase, and we are starting to pick up now in those grades. 
It is going to take us a while to get healthy again.
    We are actively going out and looking across the Individual 
Ready Reserve and other databases for soldiers who have left 
active duty, and, in our terms, have taken a knee--three or 
four years--and we are going back to them now and saying, What 
about coming back into Reserves? We are getting a good take 
rate on that.
    And I think it plays exactly to your point before, that 
continuum of service is the key to success for all of us. That 
continuum of service that allows an individual with their 
lifestyle to say, I have been on active duty for four or five 
years, I need a break. Or, I want to try something different, 
let me move into the Reserve Component or even move into the 
IRR and take a knee, but with the confidence that if I want to, 
I can come back the other direction.
    That is what we have got to, I think, get within the Army. 
And we are not there yet. We are still, we have some 
bureaucracy involved, we have some gray determination--if you 
leave and stay out for a certain amount of time, you are going 
to have to come back on active service at a lower rank. We have 
to get beyond those and level the playing field. But we are 
working feverishly with a campaign plan to reshape the Reserve, 
but it is going to take us a couple of years to get healthy.
    Admiral Debbink. Ma'am, we have the same issues. It will 
take us a while to get healthy. But a couple of things that we 
are working on, we are having success in trying to attract that 
lieutenant commander or senior lieutenant as they are thinking 
about departing the active duty. We stood up an office called 
the Career Transition Office, CTO, in Millington, which is our 
personnel headquarters. And that office contacts individually 
each active duty officer who has expressed a desire to leave 
active duty personally. And we have seen by that personal 
contact, our transitions have gone from 26 percent up to 54 
percent. So, quite successful. We will continue that effort.
    Mrs. Davis. One of the questions that I was asking, not 
relevant to that discussion, gets back to the health component, 
the mental health components, whether or not you were aware 
of--and I am just trying to understand the statistics, the 
differences between active duty, and Reserve, and Guard in our 
suicide rates--whether there was anything that we are looking 
at. And it looks as if the numbers are quite different, 
actually, and I don't know whether you have anything that you 
would like to add or suggest regarding that.
    General Stultz. I know for both the Army Reserve and the 
Army Guard--Ray can follow along with their experiences--the 
major difference we are seeing within the Army Reserve--and we 
do what we call a psychological autopsy on every case. We go in 
depth to try and figure out what was going on. The majority of 
our suicides are not related to deployments. The majority of 
our suicides are actually soldiers who have never deployed. 
Some of our suicides are soldiers who have just joined the 
Reserves.
    And so we are trying to find out what is it that is going 
on in their life that makes them make this tragic decision. We 
know that almost in every case there is something, a broken 
relationship, or something that happens that kind of pushes 
them over the edge.
    My concern is, in some cases as we did the psychological 
autopsy, the soldier indicated, or his family or friends, that 
his proudest thing was being a member of the military; that 
that was the only thing he had going for him in his life. The 
problem is, for the typical Reserve soldier, we only see them 
two days out of the month. They are back home with their family 
or friends the other 28. So this idea of a battle buddy doesn't 
work as well as it does with the active component.
    The key to us is we are trying to develop a program that is 
not only targeted at the soldiers and the battle buddy system--
look out for your battle buddy--it is targeted at the family. 
We have to educate the family. We have to educate the family as 
to the warning signs; but we also have to educate them that 
there is no stigma. It is okay to ask for help. If you see 
something happening with your son or your husband or wife or 
whatever, it is okay to ask for help. And here is where you can 
go.
    We have had that happen on a couple of occasions already 
with our suicide training, where family members have come 
forward saying, hey, my son needs some help and he is not 
willing to ask for it.
    That is the challenge. We had one soldier, just as an 
anecdotal case, that after we did the suicide training, came 
forward and said, I need help. We found out he was living in 
his car in a Walmart parking lot. But my first reaction is I am 
going to go relieve the commander and the first sergeant. But 
when I talked to the commander they said, sir, we never knew. 
He showed up at drill in uniform, did his duty, left on Sunday 
afternoon, and no one ever really knew the situation he was in 
until he came forward.
    For us that is the challenge. It is, how do we reach that 
soldier and his family the other 28 days of the month that we 
are not with him. But it is not really a deployment-related 
issue for us.
    Mrs. Davis. One of the concerns around compensation and 
bonuses as well, and help and support, really has to do with 
the extension of TRICARE Reserve Select. Now is there some--as 
you are speaking of this particular soldier and others, one of 
the issues I understand is, especially with the Guard and 
Reserve, is helping people to actually access TRICARE Select. 
Is that a problem, and do we need to approach it differently?
    Secretary McCarthy. When you talk about TRICARE Reserve 
Select, you are talking about a tiny or a relatively small, I 
guess is a better way to put it, a very small percentage of the 
force. Right now, of the eligible members of the Guard and 
Reserve, only about 10 percent of them are enrolled in TRICARE 
Reserve select. So one of the things we want to do is to 
increase, broaden the enrollment.
    For those who are enrolled in TRICARE Reserve Select or 
those who are getting TRICARE benefits because they are either 
on active duty or coming or going from active duty, it is clear 
that the network of providers is not as broad as we would like. 
It is not only a number, but in distribution, so there are 
pockets of the country where there simply aren't enough TRICARE 
providers. And that, too, is an object of great interest and 
something that we know we need to continue to work on.
    Mrs. Davis. Is there anything that you see the role the 
Congress needs to play here? This is more or less an outreach 
job in a number of communities that needs to be more 
aggressive, and, as you said, you need to provide--find the 
providers as well.
    Secretary McCarthy. Well, one of the things that I think we 
are seeing is that we have got three big TRICARE regions, three 
big TRICARE providers. And in one of the regions, the number 
and the distribution of providers is much better than it is in 
the other two. And I think it is because they have harnessed 
state agencies, state authorities, adjutant generals, 
Governors, to help spread the word and get more health-care 
providers signed up.
    Whether there is a role, a national role, whether there is 
a role for the Congress nationally or not, I am not sure yet. 
But I know that both the TRICARE Management Agency and the 
Assistant Secretary for Health Affairs are working hard on 
that.
    Mrs. Davis. Right. Okay, thank you. Does anybody else want 
to comment? Yes.
    Admiral Debbink. Yes, ma'am. Continuity of care is very 
important as you work through this continuous service 
construct. And TRICARE is an amazing benefit for our reservists 
and guardsmen and, in my case, the sailors. And the Congress 
helped us out greatly last year by putting into the National 
Defense Authorization Act (NDAA) the ability for reservists and 
guardsmen to have TRICARE continue into what we call the 
``gray'' area. After you retire after 20 years or 30 years of 
service, say, in their late thirties to 50, it would take them 
to age 60.
    That was important because I believe the reason we have a 
very low take-up rate with TRICARE is a reservist knows that at 
some point that care, that insurance, is not going to be 
available to them once they retire.
    And so that took care of that problem. And we can get out 
now and start marking this with one more exception, and you 
mentioned the IRR before. We do find, in my case at least, 
people being, if you will, forced into the IRR occasionally. So 
let's say they come back from a mobilization and their billet 
is not available to them for another six months or a year, and 
they fall into this gap, if you will. And so I believe that is 
the last gap that we had.
    And then I think we all as chiefs here can get out and 
really push for our members to join TRICARE. That will be good 
for the member. It will also be very good for us as a force, 
because it ensures our members keep a higher level of medical 
readiness, which is, of course, very important for their 
deployability.
    Mrs. Davis. And we are making some speculation, of course, 
which may or may not be true, that having that available, 
particularly in areas where people do need some support, may in 
fact make families and Reserve or Guard officer more likely to 
get the kind of help that they need, if it is available and it 
is right there for them.
    Dr. Snyder.
    Dr. Snyder. Madam Chair, I meant to make a comment, very 
briefly. We have an Army Reserve Master Sergeant in town from 
Arkansas. Master Sergeant Verlean Brown, from Sherwood, 
Arkansas, spent 34 years in Army Reserve, including a 400-day 
tour in 2008-2009 in Iraq, where she worked as an advocate for 
victims of sexual assault. And she is in town because she is 
one of the ten national award winners of the Attorney General's 
Office. But that all grew out of her work in the Army Reserve. 
So thank you, Madam Chair.
    Mrs. Davis. We are going to just wind down and we have some 
votes. But just to end this, because I believe--and you have 
all stated how important families are to your efforts. And a 
number of all the services have begun and are sustaining 
programs that are of great help to families.
    Is there anything else in this regard, whether it is Purple 
Camps or programs for young children? We are learning as we 
study the military family and children today, about what is 
difficult with deployments. We have had some reports that have 
come back.
    Have you, in your capacity, learned anything recently, 
about the families that you are serving, that would be helpful 
to us to know about? And is there anything that you see and 
that you think is a particular model, a particular program that 
we should do more with?
    One of the things that surprises me, I almost learn every 
day about another organization out there that is supporting our 
families, or children, which I think is a very good thing. We 
know that families would still suggest, at least they did last 
year, that they think that Americans generally do not 
understand or appreciate the sacrifices that they make. And yet 
we see that there are many, many very committed individuals 
that are working hard to be supportive of our families, maybe a 
relative drop in the bucket in terms of public perception, but 
nevertheless it is there.
    Is there anything else that you think we ought to be doing 
in this regard? Because there is nothing more heartbreaking--
and I am always remembering Mr. Jones's comment about the 
little boy and his concern that his daddy is not dead yet. Our 
kids are suffering. Our families are suffering, despite the 
tremendous, tremendous resilience that we see in them. And I 
think we need to applaud them and applaud their leadership for 
that.
    But what else do you see that we really need to have a much 
more aggressive role to play in this regard? General Kelly.
    General Kelly. I think active or Reserve Component, I think 
if you give them, the families, predictability, if you give 
them sufficient dwell. You have got to watch out, I think in my 
community, our community, you have got to watch out for people 
that volunteer too much to go. They just want to go overseas 
and do their part over and over again. You have to watch out 
because there is a balance there.
    What has worked very well for us--and this is no comment on 
how other services do it--but the shorter deployments, the 
seven month deployments for most of the marines that go over 
has worked very, very well for us in terms of families. Of 
course, the families love it. So I think those things, 
predictability and sufficient dwell and tour length is pretty 
important.
    General Stultz. I will give you one initiative we are 
doing--and I have to give credit to my wife, not me, because 
she has lived through this as I have put her through these 
multiple deployments that I have been through. But she said we 
have got to take the installation to the families in the 
Reserve because we don't live on the installations; we live in 
the communities.
    And we are doing a couple of pilot tests right now in the 
Army Reserve which we call the Army Strong Community Center--
but it can morph into anything--but just within the community, 
putting a facility with a couple of people full-time in there, 
and putting a banner out, and say this is where you come if you 
need help.
    We opened up our first one last year in Rochester, New 
York, in one of my Reserve centers. But we want to get outside 
the Reserve center and get in the community. We have had over 
3,000 requests for support come through that Rochester center. 
Surprisingly, over 500 of those were active duty. A number of 
them were Navy, Marine Corps and Air Force.
    What we are finding that we really hadn't thought about is 
in those communities across America, when that husband leaves 
Fort Campbell for a 1-year or 15-month deployment, the wife and 
kids go back to Rochester. We have had a number of Gold Star 
families come in and say, We are here in Rochester. One young 
father said, My son was at Fort Hood, Texas, 4th Infantry 
Division. He was killed in action.
    I have never been to Fort Hood. I don't know anybody in 
Fort Hood. I need somebody here, so we will pilot test. In 
fact, we are looking at California as one of the locations to 
see how can we get out into the community and then hand it to 
Office of the Secretary of Defense (OSD) to make it Purple, not 
an Army Reserve.
    Mrs. Davis. Anyone else?
    General Carpenter. I think from the Army National Guard 
perspective, I tell you that the Yellow Ribbon Program has been 
a God-send in this business in terms of reaching out and 
touching the families, especially while the service member is 
deployed, because the anxiety level for those family members 
while the service member is deployed is through the roof.
    And we are looking at some of the statistics now in terms 
of impacts on families of deployments, suicide rates for family 
members, in conjunction with those kinds of deployments. And 
Yellow Ribbon has been key to us in terms of establishing that 
relationship and making sure that we know what is going on out 
there with the family, truly a big deal. And we thank the 
Congress for their support of that particular program.
    Secretary McCarthy. One of the things, if I could, on the 
Yellow Ribbon Program and what can Congress do, there is an 
element or item in this year's Defense Omnibus that would 
enable us to expand the definition of family member who can 
attend the Yellow Ribbon events beyond simply spouse or parent. 
And we know that that is an important change that needs to be 
made in the joint travel reg, but we need congressional support 
to do that. If we get that changed, we will be able to bring 
more supportive, more--some people, you know, don't have a 
spouse, but they have somebody else who is a very supportive 
person, who ought to be a part of the Yellow Ribbon process. So 
I ask your consideration for that.
    Mrs. Davis. Why would anybody object to that? Is it just 
dollars? Why would anyone object? Why haven't we done that 
already?
    Secretary McCarthy. I am not sure why we haven't done it 
already. But when we looked at the joint travel reg, which is 
the restrictive document, the answer came back, Well, we need 
to get the law changed so we can change the Joint Travel 
Regulation (JTR), so that is what we need to do. It is in the 
omnibus this year.
    Mrs. Davis. Thank you. We are going to have to go vote. Any 
last-minute comment from anyone that you are going to walk out 
of here and say, Oh darn, I didn't say that? Anything?
    Thank you so much to all of you for your tremendous 
service. We appreciate it greatly. We know it has been a long 
career and we appreciate the leadership that you provide. Thank 
you very much.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             April 15, 2010
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2010

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 15, 2010

=======================================================================

      
                   QUESTION SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. General McCarthy, SEC. 702. National Defense 
Authorization Act for Fiscal Year 2010, (P.L. 111-84) extended the 
early eligibility for TRICARE from 90 days to 180 days before 
activation for members of the selective Reserve. What is the status of 
the implementation of this statute?
    Secretary McCarthy. At the National Guard Bureau, the 
implementation of the expansion of Early TRICARE to 180 days is delayed 
until revision of applicable Department of Defense Instruction(s) and 
system changes are implemented at the Defense Manpower Data Center.
                                 ______
                                 
                     QUESTION SUBMITTED BY MR. HARE
    Mr. Hare. General Wyatt, since the loss of aircraft due to BRAC 
2005, several states have received new flying missions (Nashville, TN 
Lost C-130, gained WC-130: Bradley, CT Lost A-10, gained C-27: 
Meridian, MS Lost KC-135, gained C-27: Fargo, ND Lost F-16, gained C-27 
and Predator UAV: Mansfield, OH Lost C-130, gained C-27: Battle Creek, 
MI Lost A-10, gained C-21 and C-27) however, the 183rd FW, Springfield, 
IL which lost F-16's is still without a replacement flying mission. The 
morale of the personnel on the base has become increasingly low because 
the base is sitting there with no air-related mission. While the unit 
has made great strides in recruiting, an operational flying mission 
would greatly assist in recruiting and retaining highly skilled and 
trained members and ``home grow'' personnel to fill some positions. 
What are the Air Force/Air National Guard's plans in locating a new 
flying mission at the 183d Fighter Wing, Springfield, IL? When will the 
unit receive a replacement flying mission, and what will that mission 
be?
    General Wyatt. The National Guard Bureau worked aggressively with 
the Air Force and the Adjutants General to identify and bed down 
enduring missions for units affected by the 2005 Base Closure and 
Realignment decisions. In some cases we were successful in identifying 
viable flying missions; however, there were several instances where our 
options were limited. The 183rd FW at Springfield, IL is one of those 
locations. While we were able to place enduring missions to meet the 
needs of our Air Force and Combatant Commanders, we have been 
unsuccessful in identifying a flying mission. We will continue to work 
with the Air Force to identify new missions for all of our ANG units 
who have lost flying missions, but recapitalization issues will make it 
likely some of our ANG units will not receive replacement flying 
missions. The Adjutants General recognized this constrained environment 
and have requested, through an Adjutants General of the United States 
resolution, that we prioritize mission bed down based on retaining a 
flying mission in every state. Illinois is one of the fortunate states, 
as it still retains two other flying units - KC-135s at Scott AFB and 
C-130s at Peoria, IL. My staff will continue to evaluate potential 
missions, which will provide a meaningful and enduring mission for the 
men and women at Springfield, IL.

                                  <all>

</pre></body></html>
